v.

Supreme Court, U.S.
FILED

i

OCT 2 0 2020

yj

No.

OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES

In re: Derrick Howell,
Petitioner.
%

PETITIONER FOR A WRIT OF MANDAMUS
to the United States Court of Appeals for the Eleventh Circuit
for the Northern District of Florida , Tallahassee Division
USCOA 11 No. 18-13858-J (Dist. ct. No. 4:13-cr-00033-MW-GRJ-l)

Derrick Howell
UMS # 64482-019
F.C.I. Edgefield
P.O. Box 725
Edgefield, S.C. 29824
Pro Se Prisoner

RECEIVED
OCT 2 0 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

V-

TABLE OF CONTENTS
iii

Question Presented For Review-

iii

Relief Sought ...........................................
UnavaiLabilty Of Relief In Other Courts

iii

Unsuitability Of Relief In Other Courts

iv
v

Certificate Of Interested Parties-

vi

Table Of Authorities
Jurisdictional Statement

vii

Citation To Lower Courts-•

-vii

Controlling Provisions, Statutes, and Regulations

• viii

Statement of tie Case And Governing Facts-

-1 - 6

ARGUMENT
_1- Whether Howell is entitled, to Mandamus Relief to Compel the
District Court to EXTEND the time to file his appeal of the
Court's Judgment of Howell’s § 3582(c)(2) Motion for an
additional 30 days, that the delay with which to respond was
beyond Petitioner's control and cannot be fairly used in
■computing time for which to appeal, in order to prevent a
miscarriage of justice and where it appears there is no other
6

remedy at law available
A-. Whether Petitioner has any other adequate means
of relief.................................................................

6

- 15

JB. Whether the right to Mandamus is Clear and
Indisputable...................................... .....

15 - 16

Conclusion

17

Verification

17

Cetificate Of Service

18

Appendix-

ATTACHED

QUESTION PRESENTED FOR REVIEW
1. WHETHER MANDAMUS IS APPROPRIATE TO COMPEL A DISTRICT COURT TO
EXTEND THE TIMELINESS OF AN APPEAL OF A 3582(c)(2) MOTION FOR
AN ADDITIONAL 30 DAYS BASED ON EXCUSABLE NEGLECT, WHERE THE
PETITIONER DID NOT RECEIVE THE COURT'S FINAL JUDGMENT UNTIL 32
DAYS AFTER THE EXPIRATION OF THE APPEAL PERIOD, BUT PROMPTLY
FILED A MOTION FOR CLARIFICATION ?
RELIEF SOUGHT
Petitioner prays for a Writ of Mandamus directed to the United States
"District Court for the Northern District of Florida and the Honorable Judge ;
Mark E. Walker, directing and commanding this Respondent, to EXTEND for an
additional 30 days the time for Howell to appeal the Court's judgment^ of his:
§ 3582(c)(2) Motion via his Motion For Clarification filed on October 30, 2017
with instructions to GRANT Howell LEAVE to proceed with his appeal on the
merits and provide for any other and further relief as law and justice may
require in this case.
UNAVAILABILITY OF RELIEF IN OTHER COURTS
No other Court can grant the relief sought by this petition because:
(-1 •) On November 16, 2017 the United States District Court for the Nor­
thern District of Florida denied Howell's Motion For Clarification for relief
pursuant to 18 U-S-C. § 3582(c)(2), but failed to serve Howell a copy of the
Court’s jydgment- (See notation at the bottom of Appendix E).
(2.) Because the District Court did not send Howell a notice of its judgment he filed a Motion For Clarification under Fed. R. Civ. P. 12(c) and the
Court mischatacterized Howell's Motion as a second motion for relief pursuant
to 18 U-S.C. § 3582(c)(2) then DENIED it and transferred it to the Eleventh
Circuit Court of Appeals under 28 U-S-C. 1291. (Appendix F).
(3.) A Brief to Establish Policy Procedure for a sentence reduction under
U.S-S.G. Amendment 782 filed with the United States Court of Appeals for the

iii

Eleventh-Circuit was DISMISSED by that Court on January 14, 2020<-The Court..
deemed both Motions filed on October 30, 2017 and August 3, 2018 untimely to
'toll the appeal period by adhering to the District Court's opinion to dismiss
Howell's § 3582(c)(2) appeal without harmonizing the Supreme Court's decision
of Pioneer as presented in Howell's Motion To Reconsider. (Appendix C).
(4.) Howell filed a Response to the Government's Motion to dismiss his
appeal challenging the timeliness of his appeal. A Motion To Reconsider Order
of the mandate issued by the Circuit Court was summarily denied on March 19,
2020. (Appendix B).
(5.) The Eleventh Circuit Rule 27-2 dictates that the grant of dismissal
of an appeal by a Court of Appeals to file any other outstanding motions shall
be DENIED as MOOT and shall not be the subject of a petition for rehearing or
a writ of certiorari.
UNSUITABILITY OF ANY OTHER FORM OF RELIEF
No other form of relief will be sufficient to address Howell's claim of
the District Court s abuse of discretion in determining his sentence reduc­
tion under U-S-S-G- Amendment 782. At the time of Howell's § 3582(c)(2) pro­
ceedings the District Court made its determination of his sentence reduction
based on the mistaken belief that the Court's discretion was limited, consti­
tuting a procedural error that required resentencing. (Doc. Nos. 242; 262).
However, in the precedent case of United States v. Marroquin-Medina, 817 F.3d
1285 (11th Cir-

2016), the Eleventh Circuit instructs the District

Court to use the explicit directive of the METHODOLOGY Approach to reach a
comparably less sentence reduction authorized by the U-S- Sentencing Commis­
sion- According.to the Fourth, Fifth, Seventh, and Ninth sister Circuits they
are holding that the Court's " must " apply a reasonable method to calculate
a comparable reduction under § 1B1.10(b)(2)(B), as long as the Court in a

iv

§_35.82Cc,)X2^proceeding .employsJhe^same^MTHOnQlJDGY.to^calculate^aj.edagtign,-..- ...
that it employed when calculating the degree of the 5K--1 departure. See
Morris v- United States, 147 F. Supp. 3d 1349 (11th Cir- 2015). Ihe Court
narrowed the scope of its authority by not applying the correct policy state­
ment to this case- The District Court set the wrong legal framework by skip­
ping over a mandatory procedural requirement set for'

in Step - 1 in Pillion

v- United States, 130 S- Ct. 2683 (2010), (applying the U.S.S-G. 5K-:-l Manual
§ 1B1.10(b)(2)(B)). See also Molina -Martinez v. United States, 136 S. Ct.
1338 (2016)."
Mandamus is warranted to EXTEND the time to appeal due to Excusable Ne­
glect or Good Cause in this case via Fed. R. App. P. 4(b)(4) not only because
Howell has exhausted every other available remedy, but the lower courts have
refused to concede the 32 day delay was beyond Howell's control. Instead, the
Courts stauchly continued to assert that Howell's appeal was untimely and
therefore barred under Fed. R. App. P- 4(b)(1)(A), even though the Pioneer
Court decision clarifies that the relevant factors are applicable presented
by Howell in this case.
CERTIFICATE OF INTERESTED PARTIES
The Petitioner, Derrick LaShon Howell, who remains incarcerated at the
Federal Correctional Institution located within the Territorial confines of
the State of South Carolina, by virtue of a Judgment and Committment Order
entered by the United States District Court for the Northern District of Flo­
rida in Case No. 4:13-cr-00033-MW-GRJ-l, is an interested party.
Warden Shannon Phelps by virtue of being Chief Executive Officer of the
Federal Correctional Institution located in Edgefield, South Carolina - and
thereby Petitioner's delegated custodian through the Authority of the Attor­
ney General, is an interested party.

v

— - ^Attorney- Qerteral -Wil 1 iam Barr-by-vi-r-tue of the - Ekeaitive ‘fir‘anch”of- 'the
Government’s delegated authority over United States citizens' convicted and
ordered imprisoned for violating Federal Statutory Law, is an interested
party.
Chief Distrcit Court Judge Mark E. Walker, by virtue of presiding over
the Federal District Court of the Northern Florida, Tallahassee Division
criminal and civil proceedings in Case Nos- 4:13-cr-00033-MW-GRJ-l ; 4:15cv-00049-MW-GRJ

is an interested party.

i; «;•

All .currently sitting Circuit Court Judges of the United States Court
of Apppeals for the Eleventh Circuit.
Undersigned Counsel, Clyde M- Taylor Jr-, by virtue of providing coun­
sel of record to petitioner during the District Court proceedings underlying
this case, in an interested party. .
The United States Attorney's Office for the Northern District of Flo­
rida, by virtue of being the original prosecuting authority of this case )
is an interested party.
TABLE OF AUTHORITIES
SUPREME COURT AUTHORITIES
Bankers Life & Cas- Co. v. Holland
346 U-S. 394 (1975)

.2

Cheney v- United States Dist. Court,
124 S- Ct. 2575 (2004)

7

Pillion v. United States,
130 S. Ct. 2683 (2010)

v

Hollingsworth v- Perry
130 S. Ct. 705 (2004)

7

Houston v- Lack
487 U.S. 266, 108 S- Ct- 2379 L. Ed. 2d 245 (1998).
Kerr v- United States Dist. Court For Northern Dist.
426 U.S. 394 (1976)

vi

.

.

viii &• passim
6

. Mo 1 inar_MarX.me.z^x^-United .Sta t e s___ _
136 S. Ct . 1338 (2016).........................

v

Pioneer Inv- Serv- Co- v- Brunswick assocs- Ltd. Part'ship,
507 U-S. 380, 123 L. Ed- 2d 74 (1993)

viii & passim

CIRCUIT COURT AUTHORITIES
In re Qwest Commc'ns Int'l Inc.,
450 F.3d 1179, 1184 (10th Cir- 2006)

16

In re Steinhardt; Partners
9 F.3d 230, 233 (2nd Cir. 1993)

15

In re U-S- Dept- of Homeland Sec459 F-3d 565, 571 (5th Cir. 2006)

15

Ift iJe WiLson

15

751 F.3d 161, 169 (2006)

United States v- Grana,
§64 F.2d 312 (3rd Cir. 1989)

11

United States v. Lopez,
562 E.3d 1313*14 (11th Cir- 2016)

14

United States v. Marroquin-Medina,
817 F-3d 1285 (11th Cir. 2016)

iv

Morris v. United States,
147 F.-Supp- 3d 1349 (11th Cir. 2015)

v

United States v- Torres,
372 F.3d 1159, 1162 (10th Cir- 2004)

9

JURISDICTIONAL STATEMENT
This Court has jurisdiction to issue the request of Writ of Mandamus
under the All Writs Act, 28 U-S.C. § 1651 and the Supreme Court Rule 20.
CITATIONS OF THE LOWER COURT DECISIONS
The decisions, of the United States District Court for the Northern
District of Florida, Tallahassee Division are set in the Written Orders
attached to this petitioii'in Appendixes D, E, & F as noted below.
The decisions of the United States Court of Appeals for the Eleventh Cir­
cuit are set out iirthe Written Orders attached to this petition in Appendixes A., B, &C as
noted below.

vii

CONTROLLING PROVISIONS.,. .STATUTES.,,. ~ AND REGULATIONS.
The Fifth Amendment of the United States Constitution guarantees the
right to Due Process of Law in all civil and criminal proceedings. The
Constitutional legislative powers enacts Amendment 782 to the People as codified under Title 18 U.S.C. § 3582(c) (21) provides that, where a defendant
was sentenced to a term of imprisonment based on a sentencing range that
subsequently was lowered by the sentencing Commission through an amendment,
the District Court may reduce the defendant's sentence if such a reduction
is consistent with the Commission's applicable policy statements. U-S. Sen­
tencing Guidelines Manual § 2Dl.l(c)'s Drug Quantity Table by 2 levels,
which reduced the base offense level for most drugs. The First Amendment
also guarantees the right to petition the Court to seek redress of grievances
as codified under Fed. R. Civ. P. 59(e) to alter or amend the District Court
Judgment

no later than 14 days after the entry of a criminal judgment.

Federal Rules of Appellate Procedure 4(b)(4) dictates upon finding EXCUSABLE
NEGLECT or GOOD CAUSE, the District Court may - before

or after the time

has expired with or without motion and notice - EXTEND the time to file a
. •*.

period not to exceed 30 days from the expiration of the time that is other­
wise prescribed by rule 4(b). In determining what constitutes Excusable Ne­
glect or Good Cause, the Court must take account of all the relevant circum­
stances surrounding the party’s ommission. Pioneer Inv. Sev. Co. v. Brunswick
Assocs- Ltd. Partnership. 507 U-S. 380, 123 L- Ed. 2d 74 (1993). Four factors
that are relevant are: (1) danger and unfair prejudice to the nonmoving party:
(2) length of delay and potential. impact on judicial proceedings: (3) reasonsfor the delay, including whether it was in the reasonable control of the mo­
vant: (4) whether the movant acted in good faith- This Court has clarified
that in Houston v. Lack, 487 U-S- 266, 276, 108 S. Ct. 2379 2385,: 1010 L. Ed.

viii

2d 245 (1998), pro se prisioners' notice of appeals are deemed.filed at the
moment of delivery to prison authorities for fowarding to the District Court’'Ihis 'Honorable Court reasoned that pro se prisoner litigants have no control
over delays in the prison authorities' processing of legal mail and that a
prisoner's failure to act promptly cannot bind them. Id- at 2385- Under U-SSentencing Guidelines 5K-1 Manual 2014 Version § 1B1-10(b)(2)(B), grants the
sentencing court in a § 3582(c)(2) proceeding, the discretion to comparably
reduce a defendant's sentence where the defendant previously received a U-SSentencind Guideline 5K-1 departure at his original sentencing. If a sentenc­
ing court chooses to exercise its discretion and make a comaprable reduction,
it is bound to use a specific approach or method to calculate the comparable
reduction. Rather, the court may use any of the reasonable methods that were
available to calculate the original 5K-1 departure, so long as they result in
a comparable

reduction.
• 'STATEMENT OF THE CASE AND GOVERNING FACTS

On February 13, 2013, Howell and 4 others were charged in an 8 Count
indictment with various control substance and weapons offenses. (Doc. No24). Howell entered a Plea of Guilty pursuant to a written Plea Agreement
and Statement of Facts on May 10, 2013. (Doc. Nos. 73; 75).
On January 28, 2014, Howell was sentenced to 180-months to the F-B-O-Poh Counts 1,2,7, & 8 followed by a consecutive 48 months for Count 3. (Doc.
Nos. 183; 184). At that time the Government filed a 5K-1 Motion and the Court
accepted it and applied a downward departure from the low end of the guide­
line equaling a 31% reduction- (Doc- No- 176).
On May 15, 2015, the District Court notified Howell by Order, that he was
eligible for- relief pursuant to 18 U-S-C- § 3582(c)(2) under 2D1-1 Drug Guide­
line 'applying Amendment 782. (Doc. No. 241). The Government filed a ’

1

Response Motion on May 29, 2015, vehemently opposing any further redcution
of Howell's sentence under Amendment 782. (Doc. No- 242). After Howell moved
that the District Court dismiss

2 consecutive assigned attorneys due to

conflicts of interests (Doc, Nos- 244; 245),-Howell was assigned Cylde MTaylor Jr. as counsel to represent him for a sentence reduction under Amend­
ment 782. (Doc. No. 265).
On April 1, 2016, the Eleventh Circuit resolved the issue of selecting
one of three permissible methods and the extent which to calculate a comparable substantial assistance departure reduction under U-S. Sentencing
Guideline § 5K~1 Manual 2014 Version

§ 1B1.10(b)(2)(B). On June 8, 2016

counsel filed a Motion pursuant to 18 U-S-C. § 3582(c)(2) with supporting
documents to reduce Howell's sentence under Amendment 782. (Doc. No. 262).
Importantly, counsel failed to cite any case law or the applicable policy
statement

§ 1B1.10(b)(2)(B) to correctly calculate the extent of Howell's

reduction.
Qn August 17, 2017, Howell was transferred from Ashland F-C-I- to

At­

lanta D-C-U* awaiting transfer to Edgefield F-C-I. (Appendix I). While Ho­
well was temporarily housed at Atlanta D-C-U., the District Court on August
20, 2017 entered and mailed the Order (Doc. No- 263) DENYING Howell's § 2255
and the Order reducing his sentence by 24 months in light of Amendment 782.
(Appendix D - Pg. 6). Howell did not receive any mail during the 7 days
that he was at Atlanta D-C-U- Howell arrived at Edgefield F-C-I- on August
24, 2017 from Atalnta D-C-U- (Appendix I)Howell immediately began his Due Diligence after arriving to Edgefield,
and on August 29, 2017 he emailed his wife Kimberly Howell to forward to his
attorney, to inform him of Howell's new location and also to seek the status
' of his § 3582(c)(2) Motion- (Appendix J - Pg- 2). Counsel responded by

2

-lettec-„on,-Septernber_294—2017 ,.v\hich .verifies._.that Howell had not yet .received_...
the Court's order- (Appendix D - Pg- 8).
On October 6, 2017, Howell finally received the Court’s Orders. (DocNos- 263j265). Also included in Howell's mail were 2 back,dated! letters from
counsel informing Howell of the Court's decisions. In counsel's first let­
ter dated August 21, 2017, he attempted to notify Howell that he did not
see any basis for further legal efforts to obtain relief, concluding that
he would be closing Howell's files shortly. (Appendix L). In counsel's secong letter dated September 26, 2017, he attempted to notify Howell that
the .‘.Court may have made an " error

in interpreting

his request for re­

lief and suggested Howell to file a Motion To Clarify the Order- (Appendix D
Pg- 3)• Counsel failed to suggest the option of appealing the Court's

Howell timely filed his Notice of Appeal for his § 2255 on October 16,
2017, according to the date (October 6th) that he received the Orders (Doc.
No. 263; 265). In that Notice Howell states the reason why he was filing
at that time (October 16th), in which the Government accepted, with no ob­
jections- (Doc- No. 266 - Pg. 2). Under the advice of counsel and with the
help of a prison law library clerk and! his discovery of the relevant case
law in § 1B1.10(b)(2)(B), Howell promptly filed a Motion For Clarification
on October 30, 2017. (Appendix D - Pgs. 1-5).
On November 2, 2017, just 24 hours after his Mother’s Deathj Howell
once again Showed Due Diligence and wrote his counsel requesting all docu­
ments pertaining to his case to continue relief on hiS own and counsel re­
sponded to him by lettep- (Appendix M).
On November 16,2017 the District Court DENIED Howell’s motion but did
not serve him a copy of the Order and " strangely ", the Court stated at the

3

bottom of the Order that it would not send Howell a copy unless he contact­
ed the Clerk's Office and paid for it. (Appendix E). As sworn Howell never
received a copy of the order until November of 2019. (Appendix H - Pg. 3
In. 16).
After not receiving any response from the District Court about his Mo­
tion (Doc. No- 272), Howell in late November of 2017 called his wife and
asked her to call the Clerk's Office to see if it has even received his
motion. The Clerk at that time told her that the court had not received such
motion from Hpwell. (Appendix H - Pg. 2 In. 10). Howell wrote the District
Court on December 4, 2017, requesting a Docket Sheet for Case No. 4:13-cr00033-MW-GRJ-1 to check on the status of his motion (Doc. No. 272). Eleven
days later, Howell received a Civil Docket Sheet with all LOCKED entries and
was under the impression that it was the correct docket sheet at that time.
Due to Howell's layman knowledge, he did not know that he actually needed a
Criminal Docket Sheet to verify the Court's docket entries of his case. (Ap­
pendix H - Pg. 2 In. 11). Howell again had his wife to call the Clerk of
Courts on or about December 15, 2017 to see if there was any record of the
Court receiving his Motion (Doc. No. 2727). The clerk stated to her that
there was no record showing that Howell filed a motion at that time. (Appen­
dix K - Pg. 1 In. 6).
On or about March 18, 2018 Howell emailed his wife and asked her to
check with the Clerk of Courts again to see what the status was of his mo­
tion (Doc. No. 272)

and she was informed that there was nothing showing

in the system for friis

motion. (Appendix H - Pg. 3 #15; Appendix K -

Pg. 2 #7). After coming off of several institutional lockdowns in the past
90 days , Howell emailed his wife on March 23, 2018 to forward to his counsel
asking him to look over a Motion For Status that Howell had prepared to

4

.. submit.. ..to the Court, ...but .counsel..never ...responded. (Appendix J.) •. .jQn_o r. about....__
March 29, 2018, Howell submitted a Motion For Status in which the Court never
responded as sworn in the record. (Appendix H - Pg. 3- In. 15).

;

Howell went months without being able to verify if the District Court
had ever received and/or made a decision on his Motion For Clarification. By
the Courts not sending Howell a Notice, made it impossible foe him to know if
any decision had been made. Desperately, and cautiously due to the sensitive
nature of Howell's substantial assistance to the authorities frowned upon in
the prison environment, Howell with the advice of the prison’s law library
clerk; filed another Motion For Clarification pursuant to Fed. R. Civ. P. 12(c).
(Doc. No. 280). The District Court DENIED the Motion (Doc. No. 281) on August
9, 2018 for any further relief, and failed to even mention the facts of re­
ceiving Howell’s first

motion (Doc- No- 272) or denying it (Doc. No- 273),

although Howell clearly inquired about if the court had received it in that
motion.

(Appendix F). Howell timely filed a Notice of Appeal that was ..

forwarded to the Court of Appeals. (Doc. No- 282).
On February 14, 2019, the United States Court of Appeals for thr Eleventh
Circuit GRANTED Howell In Forma Pauperis for Case No- 18-13858-J. (Appendix C)
Howell submitted an Opening Brief to Establish The Policy Procedure to the Eleventh Circuit, for a sentence reduction under Amendment 7-82 § lB1.10(b)(2)
(B) on or about October 10, 2019. [CA No. 18-13858].' The Government filed a
Motion To DISMISS Howell's appeal as untimely on October 23, 2019 [CA No891393-1]; this was the first time that Howell was aware of the Court even re­
ceiving

or denying his Motions (Doc. Nos. 272;273). Howell filed a Response

Motion on December 9- 2019. fCA No. 8970803-1]. Howell’s wife retrieved her

5

email user account as further evidence to verify his efforts, and on December
17, 2019 Howell filed a Motion To Modify the record pursuant to Fed. R. App.
'■ P. 10(e); 8(a)(2). [CA No- 8970803-2]. (Appendix J). On January 14, 2020 the
Eleventh Circuit GRANTED the Government's Motion To Dismiss Howell's appeal
as untimely. ['CA No- 8913930-2]. On February 12, 2020, Howell filed a Motion
To Reconsider for the Circuit's Mandate to Dismiss. [CA No. 9007756-1]. On
March 19, 2020 the Eleventh Circuit DENIED Howell's Motion to Reconsider
[CA No- 9007756-2J. On April 1, 2020, Howell notified the Supreme Court that
due to the C0VID-19 Pandemic the F.B.O.P. went on a National Lockdown with
restricted movement and that he needed an Extension of Time to file his Writ
of Mandamus- On August 17, 2020, Howell received a notice from this Court to
make the necessary additions and corrections to his petition. On ortabbut-,
July 22, Howell tested positive for COVID - 19 and was admitted into quaran­
tine and'.once he got the chance wrote this Court and asked for an Extension.,';
ARGUMENT
1. Whether Howell is entitled to Mandamus Relief to Compel the
District Court to EXTEND the time to file his appeal of the
Court's Judgment of Howell’s § 3582(c)(2) Motion for an addi­
tional 30 days, that the delay with which to respond was be­
yond Petitioner's control and cannot be fairly used in compu­
ting time for which to appeal, in order to prevent a miscar­
riage of jus’tice and where it appears there is no other remedy
at law available.
In deciding whether Mandamus is an appropriate remedy in this case, Ho­
well submits the Court has set forth various conditions for its issuanceAmong these are " the party seeking issuance of the Writ has no other means
to attain the relief desired

, Kerr v. United States for Northern District

426 U-S. 394 (1976), and the petitioner satisfy ” burden of showing that

6

[his ;j u?igh t - to - is sua nee- o f- the - Writ is—1- cl'ear" and ~di spu table'". "Bankers" Li f e'"
& Cas- Co-, v. Holland, U- S. 379, 384 (1967).- Even where these two requi­
sites are met, the issuing court, in exercising its discretion must be sa­
tisfied that the writ is appropriate under the circumstances- These hurdles,
however demanding, are not insuperable. Moreover, the law does not put liti­
gants in the impossible position of having to exhaust alternative rememdies
before petitioning for mandamus while also having to file a mandamus peti­
tion at the earliest possible moment to avoid laches. Cheney v. United States
iA

Dist. Court, 124 S- Ct. 2576 (2004). However, the Court has stated that it
will only issues a writ of mandamus directly to a Federal District Court
where a question of public importance is involoved; or the question is of
such nature that it is particularly appropriate

for the Court to issue the

writ. Hollingsworth v- Ferry, 130 S-Ct. 705 (2010).
A.

Whether Petitioner has any other adequate means of relief.

Howell submits that he has no other adequate means of relief in this
case because the District and Circuit Courts have refused to correct an
injustice attributable to principles of fundamental fairness-pursuing the
right to appeal of the underlying § 3582(c)(2) proceeding pursuant to a
Motion For Clarification. Ultimately, the lynchpin of Howell's request for
Mandamus turns on when did he receive the District Court’s Final Judgment
Order, whether the delay in responding Was due to excusable neglect or good
cause and did Howell respond promptly.
In this context, as evidence in not only one but both of Howell's
motions submitted to the District Court, he asserts that the prison staff at
Jj.dgef.ield F.C.J-- negligently handled his incoming legal mail, and as-a",
result, Howell did not receive the Court's Final Judgment order until
October 6, 2017, “ after the expiration

7

of the appeal period.

. •

•-i v.

' - ■ (Appendix D----Pgs ■ '' 3~A-. Doc-. ' No •--■*266 )

bo th oil -Howell- s■ mo tions-i—-he-gsve * — ■•

the legitimate explanation as to why he was filing the motions at that time
which was October 20th & 30tth' (Doc- Nos- 266;272). Howell also included in
his motion all the elements to inform the court of his intent to challenge
the Court's decision. (Appendix D - Pgs- 1-5). Howell did everything in his
layman ability to show the Courts according to the record, the exact date
that he received the District Court’s Order, " in spite of " it not perform­
ing its ministerial responsibilty. However, notwithstanding the Supreme
Court's Houston and Pioneer clarification of the lower courts previous ana­
lyses of prison delay and excusable neglect or good cause, the panel that
decided Howell's Appeal as untimely deliberately overlooked the instructions
of the Houston

and Pioneer Courts concurrance explaining

how to weigh the

eveidence and make a factual determination concerning rare and extraordinary
circumstances to determine timeliness of appealsMost troubling in this context, is both the District and Circuit Courts
selectively ignored the fact that Howell conclusively established the date
that the prison officials transmitted the Court's notice to him. Indeed, on
the one hand

the District Court for the first time in tine course of pro^-

ceedings underlying Howell's § 3582(c)(2) Motion! acknowledged that " had
Howell filed his motion by September 5, 2017 he might

have received an exten­

sion of 30 days to appeal the Court's decision." See [Government's Motion To
Dismiss - CA No. 8913930-1, Pg. 9 flflj. Also the District Court failed to
serve Howel a copy of the Court's DENIAL of his motion that.included a very
odd notation at the end of the Order that stated " to the extent Defendant
seeks copies, he must qontact the Clerk's Office and pay for copies. "
(Appendix E). Yet on the other hand, the District Court asserts that Howell
did not file a notice of appeal or any other pleading for the Court's August

8

_ ^ 20. 2017j_order for over two months. The critical .question that puzzle's
Howell is, " How could this have been procedurally possible, when the Court
’•

deemed Howell untimely, an entired month before he actually received the
Court's Order?” The Circuit Court submits that both of Howell's motions for
clarification, deemed filed on October 30, 2017 and August 3, 2018, were not
timely to toll the appeal period. But how could Howell possibly even know
of the Court's decision without being served a copy of the Court's Order.
Despite the Lower Court’s contradictory reasoningjunder Fed. R. App. P.
4(b)(4)

the^District Court should have construed Howell's Motion (Doc. No-

272) as a motion for relief, then notify him extending his time to appeal
upon excusable neglect or good cause. In determining what constitutes excusable neglect, the Court mus[t] ” take account of all the relevant circustances
surrounding Howell's omission. Pioneer Inv- Servs. Co. v. Brunswick Assocs.
Ltd. P'ship., 507 U-S. 380, 395, 113 S- Ct. 1489, 123 L. Ed. 2d 74 (1993).
/

Each of the four factors weigh in favor in finding execusable neglect in Ho­
well s case; (1) There was no prejudice to the Government if the District Court
granted Howell an extension to pursue his appeal as of right,. (2) The length
of delay of Howell's filing his motion (Doc. No. 272) was hot excessive
(according to the date

he received it) and the delay did not adversely im­

pact the judicial proceedings. (3) Edgefield's prison authorities negligent­
ly handled Howell's incoming legal mail, and as a result he did not receive
the District Court's Final Judgment Order until 32 days after the expiration
of the appeal period. (4) There was no evidence that Howell acted in bad
faith or purposefully delayed his response motion to cause any disadvantage
to the Government. Id., See United States v. Torres, 372 F.3d 1159, 1162
(10th Cir- 2004)(concluding that Pioneer factors " appl[yj to the term
excusable neglect ” as it is used in Federal Rule Appellate Procedure 4(b)),

9

-Howei4-*aGknQwledges-“that -hi®..appeaL.-is'technically "■ out of=.--time=rr.^_v
but argues that he has proffered a competing justification for his late
filing, because he had no control over the government's actions} nor could
he communicate with the Clerk of Court’s directly, Distinctly, relating
to Pioneer's third factor. Howell points to the Supreme Court’s adoption of
the

prison mailbox rule " to provide the foundation to support this con­

text .and is the catalyst of Howell's argument. See Houston v. Lack, 487 U.S.
266, 108 S. Ct. 2379, 101 L. Ed. 2d 245 (1988). Howell claims that the pri­
son through’’its own negligence, opened his legal mail without Howell being
present, (mail stamped

open only in the presence of the inmate "), and de­

livered it to him during normal mailcall in his dorm, 32_ days after the ex­
piration of the time to appeal. Indeed , the Code of Federal Regulations
provides that Edgefield's prison Staff should mark the envelope of Howell's
incoming legal mail then dated and timed the letters when delivered to him
and opened them in his presence, with the signature of the staff member who
delivered the letters. This applies to Howell as specified in § 540. 18. 28
C.F.R. §

540.19(a) ■-Howell:requested .documentation to show-.the !date and

time that the mailroom received both of his notices (Doc-. Nos. 263; 265 ), ~
of them in the log book. Furthermore,

but was told that it was no record.

Howell alleges that the Bureau Of Prisons failed to comply with its own po­
licy

of tracking incoming legal mail by logging the date of the mail deli­

very, to the intended recipient. Under Houston, the prison mailroom is essentially

an adjunct of the clerk's office, " and Edgefield F-C-I- obstructed

Howell's judicial process with a jurisdictional document that had a time
limitation in which to file an appeal. Howell argues that it would be unfair
todhold him responsible for the prison's'negligence and prayerfully request
that this Honorable 'Court grant him the opportunity to hav'e his appeal heard.

10

v.r.rv “ -—

-case- was "f aced” wrth' av’'srtaa1:ji'Dn'“t'oo”'s imilBr"'tD‘i’be~nreari"-'“—--- *
ingfully distinguishable from Houston. , Like the appsallarit' in Houston, MrHowell also lost control over the timeliness of his appeal, and had no
choice but to depend m-prLscnrautheriti^ss:,; to deliver to him the notice of the
entry of the Final Judgment in Howell's case. In addition, Howell's federal
incarceration barred him from, contacting the Clerk's Office personally at
that time to inquire about the status of his case, therefore leaving Howell
with no knowledge that his appeal time was already tolling. Indeed, the
iy>

facts of Howell's instant Motion for Clarification, a criminal case, presents
even more compelling argumnents of his intent to appeal and for prison delay.
(Appendix D - Pgs. 3-4). Accordingly, as the appeallant in Houston, Howell
filed his Motion For Clarification within the requisite 30 day period, seven
days before the deadline (from the delivery date of October 6th). Because .
the respective actions of Howell would have been filed timely within the
operative statutes of limitations had

the dates of delivery to Howell from

prison authorities been used by the Courts, his case should have been rein­
stated for adjudication on the merits in the District Court-. Howell asserts
that even the " slightest " delay could ccmpranise his right to appeal and
severely prejudiced him. In this case, the total delay was 47 days

that

haulted Howell's effort unjustifiably beyond his control.
The Supreme Court danonsttatei

in Houston

its particular solicitousness

of the need to preserve the rights of Mr. Howell to appeal where the impedi­
ment.to " timely " filing arises from the process of transmitting mail from
the pri.scn over which the prisoner has no control. The teaching of Houston
is that prison delay beyond Howell's control cannot be fairly used in com­
puting time for which to appeal* (appyling Grana, 864 F.2d 312 (3rd Cir1989) that there is

no difference " between delay in transmitting

11

a

^CT..-|jgj,vg0negAg..«pQpegg—feo-^he Court-^and-teEHiiifci3rgs,^the--€©ur t^sHFina 1--Judgment-——
to a litigant so that he may prepare his appeal. In keeping with the teach­
ings of Houston , and the desire to avoid creating technical pitfalls .
to hearing on the merits, sister circuit all agree.that in computing
the timeliness of an appeal, any prison delay

in transmitting a notice of

the District Court's Final Judgment should be excluded from the computation
of an appellant's time to file an appeal.
Most revealing in this context, is that Howell began immediately

■

placing a Good Faith effort in the pursuit of Equitable Tolling by its standard just " 5 days " after arriving at Edgefield F-C-I. and continued '.-his
efforts for the next 7 months seeking the status of his motion for clarifi­
cation. (Appendix J- Pg-2). Unaware of the District Court's first denial of
Howell's Motion (Doc- No. 273) even existed, Howell diligently made every
effort to get the Court to respond to his inquiries by him and his wife
which'he argued in his Response to Govenment’s Motion To Dismiss his appeal.
Once Howell received a copy

of the Court's Final Judgment Order, he began

his legal research and "promptly" responded with all intentions

of appeal­

ing the Court's decision. (Appendix D ~ Pgs- 3-4). The Court should have
•cbristruKf Howell's actions as an intention of dilatory motives- ■ : • / ■ . i.
■'Judicial effenciency and finality are important values, and Howell
realizes that the power of the Supreme Court should not be exercised for
[m]ere convenience. But dry formalism should not sterilize procedural re­
sources which Congress has made available to the Lower Courts. The Eleventh
Circuit in its summary affirmance of this case, relied on the Government’s
primary argument instead of evaluating the factors appyling Pioneer as Ho­
well presented in his Motion To Reconsider to the Eleventh Circuit [CA No9007756-1]. Yet under the Government's formulation, a prisoner would be

12

jentitled to the.Jberefit_af Houston,if„higjdeli -™.
vering his mail for a fews days, but would be deprived of the benefit of
Houston if those custodians took 47 days to deliver a Notice from the
Courts. Houston

itself was primised upon the fairness " and

.»i .

.stands for

the principle that it is unfair to permit prisoner’s freedom to ultimately
hinge on either the diligence or good faith of his custodians.
The District and Circuit Courts’ actions surely constitute an abuse of
discretion and Howell should not be denied his constitutional right to per­
fect his appeal under Fed. R- App. P. 4(b)(4). A ("4(b)") rule that strips
Howell of his right to pursue his appeal, where the circumstances underline
his lack of notice (" in a timely manner beyond his control ") of the .final
disposition of his case j - [ violates principles of fundamental fairness and
Due Process- As it now stands, Howell is

procedurally

stuck between a

rock and a hard place ", with a question of contradiction that therefore
arises before this Honorable Court: How to settle the issue of strict juris­
dictional time limitations;, while exercising legal traditions that ^.reflect a
certain solicitude for Howell's rights? And that is precisely why Mandamus
is warranted hereThe answer to this conundrum is consequential for Howell because^ as
".v. 'fie susmits, the issue of whether there was ever
of the abuse of discretion claim

a merit of determination

in Howell's § 3582(c)(2) proceeding, de­

termines whether he ultimately recieves a fair and just opportunity to ap­
peal the District Court's Judgment or spend an additional 33 months

in

prison for an amended guideline sentence reduction he could no longer re­
ceive in the Eleventh (Fourth, Fifth, Seventh, & Ninth) Circuits- Cf- United
States v- Vicaria, 963F-2d 1412-14 (11th Cir- 1992)(explaining that to
timely toll the appeal period, a post-judgment Motion For Reconsideration

13

...__ __ .case, must _be, filed «UWTj.the„14.^xiay• period-alio ted. for- ..fi-, ...
ling a notice of appeal; Lopez,

562 F■ 3d 1313 (11th Cir. 2009)). The

Court however, appeared to anticipate this situation and even admitted
that Howell's rights may be denied, but asked the Eleventh Circuit for summary disposition because " time was of the essence

therefore side—step­

ping the issue that could have provided Howell a greater sentence reduc­
tion. See [Government's Motiom To Dismiss 8913930-1. Pg. 10 IT].
In any event, the Courts primary concern focusing on the ".'date " Ho­
well filed*his Motion For Clarification — is misplaced. While it may be
true at the end of the day that if Howell’s extension is GRANTED, and his
§ 3582(c)(2) Judgment is rendered VACATED for abuse of discretion — that
his case may be REMANDED for resentencing, that concern should not abate
the true underlying issue here; that Howell did not get a fair opportuni­
ty to appeal the Court's Judgment from his § 3582(c)(2) proceedings and
present his abuse of discretion claim for the first time from his Motion
For Clarification because its head was severed by an injustice (prisoner
held responsible for a notice that was delivered 32 days .after the expiration of the appeal period) that must be repaired in further proceedings.
Howell respectfully requests of this Honorable Court to make a nunc pro
tunc determination to address the Excusable Neglect issue and in support
of the fact that the District Court failed to provide service of a Court
Order for petitioner to respond to- Due to Howell being unaware of the
Court's decision he was crippled from filing immediate pleadings because
in spite of his many inquiries of the status of his Motion For Clarifica­
tion the Cburt neglected to inform tfcfoell of its status. Misfit Fb^ell rorand this Cburt
tha t is was only after

receiving a copy of the Government' s Motion To

Dismiss Howell's Brief in October of 2019 that Howell

14

for the first time"

became aware of the District Court's decision (Doc. No. 273). Howell then
had to write the Clerk's Office in November of 2019 requesting a copy of
his Criminal Docket Sheet to verify the Government's allegation of the Di­
strict Court's DENIAL. See (Appendixes 0 & P).
Accordingly, based on the above, Howell has no other adequate means of
relief available, and Mandamus is warranted to compel the Eleventh Circuit
and the District Court of North Florida, Tallahassee Division to prevent
an injustice and process Howell's Motion For Clarification as a request for
an extension of time for 30 days to appeal under Fed. R. App. P. 4(b)(4).
B.

Whether the right to Mandamus is Clear and Indisputable.

To establish a right to Mandamus as clear and indisputable in the con­
text of Rule 4(b)(4) would appear at first virtually impossible due to the
apparent jurisdictional and discretionary nature of the rule itself. But
then, what Howell is truly seeking by way of Mandamus is intrinsically

■

rooted in the Due Process Clause of the Fifth Amendment to the United States
Constitution and the First Amendment: an absolute right to petition the
Court to seek redress of grievances and to be afforded a Notice of a Court's
Final Judgment delivered to him in a " timely " manner without having his
appeal overlooked and thereafter indefinitely procedurally barred: Moreover,
it is clearly established that the grant or denial of a Motion For Clarifi­
cation is subject to review for abuse of discretion.
The lower courts have often held that to show a right to issuance of
the writ as

clear and indisputable, " a petitioner must demonstrate that

there has been a " usurpation of judicial power " or clear abuse of discre­
tion ". See In re U.S. Dept. Of Homeland Sec., 459 F-3d 565, 571 (5th Cir.
2006); In-re Steinhardt Partners, ( F.3d 230,-233 (2nd Cir. 1993)(same); In
re Wilson, 451 F-3d 161, 169 (3rd Cir. 2006)(same);

ii

,-,-In re-Qwest-Conmc-ns Int't-Inc.450 -F^-3d 4179, 1184 (10th- Ci-r .- 2006) (same).'Howell sutmits he has a Due Process Right to a merits ~ based determi­
nation of his abuse of discretion claim in his Motion For Clarification. In­
disputably, the District and.Circuit Court barred his abuse of discretion
claim as untimely. Howell vehemently resisted this " injustice " at all sub­
sequent levels of review, but both Courts staunchly held to their positions
that his Motion For Clarification was untimely. This Court clarified in Hou­
ston and Pioneer and demonstrated the errors of prior panel analysis of a
delay due fo Excusable Neglect and the prison mailbox rule -- including the
line of cases in other Circuits (Grana, 864 F.2d 312 (3rd Cir. 1989) to
affirm Howell's claim.
To determine whether the lower courts in this case abused their discre­
tion in ruling on an Extension for time to appeal again turns on whether
when viewed objectively, did Howell have any control over receiving the Di­
strict Court s Final Judgment 32 days

after the expiration of the appeal

period. See supra, at (6 - 15). Thus, whether the District and Circuit Courts
decisions not to EXTEND Howell's time to appeal for 30 days-was an abuse of
discretion should compel.the Court to review carefully the circumstances
presented and the decision making process of the lower courts- The answer to
this question, the right to Mandamus here is clear and indisputable.
Accordingly, when viewed in the framework of the above facts, it would
appear that the actions of the lower courts constitute an abuse of discretion
requiring intervention of the Supreme Court by way of Mandamus to direct the
lower courts to revisit the issue and provide relief as law, justice, scire
decisis and United States Supreme Court precedent requires.

16

...

' CONCLUSION' •:

WHEREFORE, for all the foregoing reassons, and in the interests of
fundamental fairness and justice, Mr- Howell respectfully requests of this
Honorable Court to issue a Writ of Mandamus to Compel the United States
District Court of North Florida

Tallahassee Division to EXTEND for 30

days Howell's time to appeal, direct the District Court to withdraw the
October 23, 2019 Motion and Judgment dismissing Howell's Motion fDoc. No
272) and Appellate Pleading as untimely, retaining its jurisdiction and
exercise the Court’ s inherent authority to GRANT relief as law and justice
requires in this case.
DECLARATION
I, Derrick LaShon Howell, the Petitioner in this cause of action do
hereby Declare under the Pains and Penalties of perjury pursuant to Title
28 U-S.C- § 1746, that all of the factual statements and procedural history
represented herein is true and correct based on my personal knowledge, information and belief to which I am competent to testify in a court of law-

0

Date on this Q day of October 2020.

Respectful
X:
Derrick LaShon Howell
USM # 64482-019
F-C-I. Edgefield
P- 0. Box 725
Edgefield, S-C. 29824

17

CERTIFIGATE-OF~SERVICE-—•
X., Derrick LaShon Howell, the Petitioner in this Application for
Mandamus do hereby'Declare under the pains and penalties of perjury pursuant
to 28 U-S-C. § 1746, that I have cause to be forwarded to the listed par­
ties below and duplicate copy of a Petition for Writ of Mandamus as.
follows:
Office of the Clerk
Supreme Court of the United States
Washington, D.C. 20543

Office of the Attorney General
Mr. William Barr
Washington D-C. 20530

Office of the United States Attorney
Mr. Jason R. Coody
4 th.'. Floor
Tallahassee, Fla. 32301

-United States Distrcit' Judge
Mark E. Walker
Chambers
111 N. Adams St.
Tallahassee, Fla- 32301

bby placing said copies in a First Class postage prepaid envelope addressed
to the above into the hands of prison authorities at the Mailroom of E-C-I.
Edgefield on this

day of October 2020 for forwarding and filing with

the Court pursuant to the Prisoner Mailbox Rule,-articulated in Houston v.
,.V'

Lack, 487, U-S- 266 (1988).

Respectfully Submitted^
X:
Derrick LaShon Howell
USM # 64482-019
F-C.I. Edgefield
P. 0. Box 725
Edgefield, S-C- 29824

18

